No. 21-144
IN THE

Supreme (Hart of the 1nitett c*tates
SEATTLE'S UNION GOSPEL MISSION,
Petitioner,
v.
MATTHEW S. WOODS,
Respondent

On Petition for a Writ of Certiorari
to the Supreme Court of Washington

CERTIFICATE OF SERVICE

The undersigned certifies that she has this 24th day of August 2021, caused
three copies of the foregoing Blanket Consent of Respondent to be served on the
below-named counsel by first-class mail, postage prepaid, and further certifies that
all persons required to be served have been served:
John J. Bursch
ALLIANCE DEFENDING FREEDOM
440 First Street N.W.
Suite 600
Washington, D.C. 20001
(616) 450-4235
jbursch@ADFlegal.org

Jennifer Denise Diskin
Counsel for Petitioner

